CERTIFICATE OF SERVICE
I, Nicole Berner, hereby certify that I am a member in good standing of the Bar of this Court and
that on this 13th day of May, 2020, I caused 1 unbound and 40 bound copies of the foregoing
Brief of Amici Curiae Service Employees International Union, et al., in Support of Petitioners in
No. 19-840, California, et al. v. Texas, et al., and Cross-Respondents in No. 19-1019, Texas, et
al. v. California, et al., to be sent via courier delivery to the U.S. Supreme Court and 3 copies to
be sent via Next Day Service and e-mail to the following parties listed below:
Samuel Passchier Siegel
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
916-210-6269
sam.siegel@doj.ca.gov
Counsel for Petitioners California, et al.
Noel J. Francisco
Counsel of Record
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents United States, et al.
Kyle Douglas Hawkins
Counsel of Record
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
512-936-1700
kyle.hawkins@oag.texas.gov
Counsel for Respondents State of Texas, et al.
Robert Earl Henneke
Counsel of Record
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
512-472-2700
rhenneke@texaspolicy.com
Counsel for Respondents Neill Hurley and John
Nantz

2

Douglas Neal Letter
Counsel of Record
219 Cannon House Office Building
Washington, DC 20515-6532
202-225-9700
douglas.letter@mail.house.gov
Counsel for U.S. House of Representatives
David Christopher Boyle
Counsel of Record
PO Box 15143
Long Beach, CA 90815
734-904-6132
dbo@boyleslaw.org
Counsel for David Boyle
Allen Xavier Baker
Counsel of Record
Crowell & Moring LLP
1001 Pennsylvania Ave., N.W.
Washington, DC 20004
202-624-2842
xbaker@crowell.com
Counsel for Alliance of Community Health Plans
and Association for Community Affiliated
Plans
Jeremy Cooper Doerre
Counsel of Record
Tillman Wright, PLLC
3440 Toringdon Way, Suite 310
Charlotte, NC 28277
704-248-4883
jdoerre@ti-law.com
Counsel for Jeremy C. Doerre
Maame Gyamfi
Counsel of Record
AARP Foundation Litigation
601 E Street NW
Washington, DC 20049
202-434-6291
mgyamfi@aarp.org
Counsel for AARP, et al.

3

Matthew S. Hellman
Counsel of Record
Jenner & Block LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
202-639-6000
mhellman@jenner.com
Counsel for Bipartisan Economic Scholars
Hyland Hunt
Counsel of Record
Deutsch Hunt PLLC
300 New Jersey Ave. NW
Suite 900
Washington, DC 20001
202-868-6915
hhunt@deutschhunt.com
Counsel for Small Business Majority Foundation
John Louis Longstreth
Counsel of Record
K&L Gates LLP
1601 K Street NW
Washington, DC 20006
202-253-3435
john.longstreth@klgates.com
Counsel for American Cancer Society et al.
Sean Marotta
Counsel of Record
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
202-637-4881
sean.marotta@hoganlovells.com
Counsel for National Hospital Associations
Andrew L. Schlafly
Counsel of Record
939 Old Chester Road
Far Hills, NJ 07931
908-719-8608
aschlafly@aol.com
Counsel for Association of American Physicians
and Surgeons

4

William Barnett Schultz
Counsel of Record
Zuckerman Spaeder LLP
1800 M Street NW, Suite 1000
Washington, DC 20036-5802
202-778-1800
wschultz@zuckerman.com
Counsel for 33 State Hospital Associations
Pratik Arvind Shah
Counsel of Record
Akin Gump Strauss Hauer & Feld, LLP
2001 K Street N.W.
Washington, DC 20006
202-887-4210
pshah@akingump.com
Counsel for America's Health Insurance Plans
Geoffrey D. Strommer
Counsel of Record
Hobbs, Straus, Dean & Walker, LLP
215 SW Washington Street
Suite 200
Portland, OR 97204
Gstrommer@hobbsstraus.com
Counsel for Tribes and Tribal Organizations
Timothy C. MacDonnell
Counsel of Record
Washington and Lee School of Law Black Lung
Clinic
Room 106, Sydney Lewis Hall, East Denny
Circle
Washington and Lee School of Law
Lexington, VA 24450
540-458-8224
macdonnellt@wlu.edu
Counsel for Washington and Lee University
School of Law Black Lung Clinic

5

All parties required to be served have been served.

_______________________________
Nicole G. Berner
Counsel of Record
Service Employees International Union
1800 Massachusetts Avenue NW
Washington, D.C. 20036
(202) 730-7466
May 13, 2020

6

